           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION





         COSTS CLAIMED BY

 THE STATE OF WASHINGTON ON THE

 SOCIAL SECURITY ADMINISTRATION’S

   CONTRACT NUMBER 600-95-22678


    JULY 2001         A-15-99-51014





   AUDIT REPORT



                ***
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                                         Refer To:




From:   Assistant  Inspector    General
         for Audit

Subject:Costs Claimed by the State of Washington on the Social Security Administration's
       Contract Number 600-95-22678 (A-15-99-51 014)



        OBJECTIVE

        Our objective was to determine if costs claimed by the State of Washington for Contract
        Number (CN) 600-95-22678 were allowable, allocable, and reasonable in accordance
        with Federal regulations and the terms of the contract.

        BACKGROUND

        The Social Security Administration's (SSA) Office of Acquisition and Grants requested
        an audit of costs incurred by the State of Washington (CN 600-95-22678) for Referral
        and Monitoring Agency (RMA) services to refer, assess, and monitor drug addicts and
        alcoholics (DA&A) receiving Supplemental Security Income (SSI) payments. 1 The
        contracted service period was from September 25, 1995. through January 31, 1997.
        The costs claimed under CN 600-95-22678 are defined in terms of the contract and the
        Office of Management and Budget (OMB) Circulars A-87 Cost Principles for State,
        Local and Indian Tribal Governments and A-122 Cost Principles for Non-Profit
        Organizations. These circulars provide criteria to assure the costs claimed by the State
        and nonprofit entities are allowable, allocable, and reasonable for Federal cost
        reimbursement contracts.




        1 SSI provides income maintenance payments to low-income individuals who are aged, blind and/or
        disabled. DA&As could be entitled to SSI if they met income and other eligibility requirements, but this
        category was eliminated in March 1996 by the Contract with America Advancement Act of 1996, Public
        Law No.104-121.     However, prior to the elimination of the DA&A category, each State had a RMA
        contractor who referred, assessed and monitored DA&As whom were SSI recipients. Even though the
        contract period extended past March 1996, SSA made no referrals after the effective date of this law.
Page 2 - James M. Fornataro

SCOPE AND METHODOLOGY

We limited our audit to the review of costs incurred by the State of Washington
and its subcontractor for CN 600-95-22678. We did not assess and do not
express an opinion of the overall acceptability of the State of Washington’s or its
subcontractor’s internal controls or accounting systems.

However, we reviewed, on a limited basis, the contractor’s and subcontractor’s
internal controls. Since we had no prior experience with the contractor or the
subcontractor, we preliminarily assessed the control risk as “High.” Therefore, we
expanded our substantive tests, which our audit reflects and provides a reasonable
basis for our conclusions. We also examined, on a judgmental basis, evidence
supporting the amounts claimed by inspecting disclosures in the data; reviewing
records; assessing the accounting principles used and significant estimates made by
the contractor; and evaluating the overall data and records presentation.

To evaluate claimed costs, we referenced OMB Circulars A-87 and A-122 and the
terms and conditions of the contract. We questioned the costs that did not meet
the requirements of these circulars and the contract to determine the allowable
costs for this contract.

We performed our fieldwork in Lacey, Washington and at the State of
Washington’s subcontractor, Therapeutic Health Services, in Seattle, Washington.
We also performed work at SSA Headquarters, located in Baltimore, Maryland, from
March 2001 through April 2001. This audit was conducted in accordance with
generally accepted government auditing standards.

RESULTS OF REVIEW
We determined the costs claimed by the State of Washington for CN 600-95-22678,
were allowable, allocable, and reasonable in accordance with applicable Federal
Regulations and the terms of the contract. Details of the costs are shown below:


          Cost Element              Budgeted      Claimed     Allowable     Questioned

Direct Labor                         $425,426     $425,426      $425,426              $0
Fringe Benefits                        110,981      110,981      110,981               0
Other Direct Costs                     111,982       68,379        68,379              0
Furniture & Equipment                   85,410       85,410       85,410               0
Computer Software & Implements          13,844       13,844       13,844               0
Travel                                   6,276        6,276         6,276              0
Subcontractors                       1,268,989    1,267,939     1,267939               0
Indirect Costs                          32,540       32,539       32,539               0
    Page 3- James M. Fornataro

    CONCLUSION      AND   RECOMMENDATION

    We recommend that SSA close out the State of Washington CN 600-95-22678   in the
    amount of $2,010, 794.




                                               ~9~
                                               Steven   L. Schaeffer   71




                    '~




~                                        ,
                                                       Appendices

APPENDIX A - Acronyms

APPENDIX B - OIG Contacts and Staff Acknowledgments

                                              Appendix A


Acronyms
CN         Contract Number


DA&A       Drug Addicts and Alcoholics


OMB        Office of Management and Budget


RMA        Referral and Monitoring Agency


SSA        Social Security Administration


SSI        Supplemental Security Income

                                                                      Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Frederick C. Nordhoff, Director

    Financial Management and Performance Monitoring Audit Division

    (410) 966-6676


    Carl Markowitz,

    Deputy Director

    (410) 965-9742



Acknowledgments

In addition to those named above:

    Suzanne Valett, Auditor-in-Charge
    Annette DeRito, Program Analyst


For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-15-99-51014.
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
